Audit Report




OIG-12-049
SAFETY AND SOUNDESS: Failed Bank Review of Western
National Bank
April 5, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                                April 5, 2012


             OIG-12-049

             MEMORANDUM FOR JOHN G. WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Western National Bank, Phoenix,
                                   Arizona

             This memorandum presents the results of our review of the failure of Western
             National Bank (Western) located in Phoenix, Arizona. The bank opened in 2005 and
             operated a main office in Phoenix and two branches located in Maricopa County
             that were opened in 2007 and 2008. Great Western Bankcorp, Inc., a one-bank
             holding company, held 72 percent of Western’s stock, and the remaining shares
             were held by several investors. The Office of the Comptroller of the Currency
             (OCC) closed Western and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on December 16, 2011. As of September 30, 2011, Western
             had approximately $162.9 million in total assets and $144.5 million in total
             deposits. As of December 31, 2011, FDIC estimated the loss to the Deposit
             Insurance Fund to be $42.9 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Western that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver and (2) interviewed an OCC problem bank
             specialist.

             We conducted this performance audit during January and February 2012 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-12-049
Page 2

Causes of Western National Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe and unsound condition to transact
business, and (3) the bank was critically undercapitalized and failed to submit an
acceptable capital restoration plan.

The primary cause of Western’s failure was its aggressive growth in commercial
real estate (CRE) loans primarily secured by owner-occupied properties, without
commensurate credit administration and credit risk management practices.
Examples of the bank’s inadequate credit administration included inaccurate risk
ratings, appraisal deficiencies, and a flawed allowance for loan and lease losses
methodology. Deficient board and management supervision were also contributing
factors. The board and management failed to (1) effectively supervise the bank’s
operations, (2) adapt sufficiently to the changing economy, (3) address the bank’s
excessive concentrations in CRE loans, and (4) comply with OCC informal and
formal enforcement actions. The bank’s high concentration in CRE loans, losses on
problem loans, declining capital, and board and management’s inability to
rehabilitate the bank ultimately led to Western’s failure.

There are matters currently under review by OCC that we have referred to the
Treasury Inspector General’s Office of Investigations.

Conclusion
Based on our review of the causes of Western’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Western’s
failure and that it had no concerns with our determination that an in-depth review
of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.
OIG-12-049
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-12-049

       Attachment 1
Management Response
                                                       OIG-12-049

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
